                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13030046                                                                      Page 1 of 1



                 We assessed an allegation of plagiarism in a proposal 1 submitted to NSF. The source2 for·
         the allegedly copied text and figures is referenced in the proposal, which also states specifically
         that the material in the source is the basis for the proposed work, cites the authors by name, and
         seeks funds for support of one of the authors in a postdoctoral research position. Accordingly,
         there is no substance to the allegation.

                  This case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)
